fan

COCKLE

2311 Douglas Street j E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B rile fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
SHANNON DALE DUKES,
Petitioner,

Vv.
LORIE DAVIS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

JOSH BARRETT SCHAFFER
Counsel of Record

1021 Main, Suite 1440
Houston, Texas 77002
(713) 951-9555
(713) 951-9854 (facsimile)
josh@joshschafferlaw.com

Counsel for Petitioner

Subscribed and sworn to before me this 14th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ee iy E Clit Qudiar-h, Ghle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39230
SERVICE LIST

Joseph P. Corcoran

Assistant Attorney General

Office of the Attorney General of Texas
P.O. Box 12548

Austin, Texas 78711

(512) 936-1400
joseph.corcoran@oag.texas.gov

Counsel for Respondent Lorie Davis,
Director, Texas Department of Criminal Justice,
Correctional Institutions Division
